HHS/OIG-Audit--"Reporting Abuses of Persons with Disabilities, (A-01-00-02502)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Reporting Abuses of Persons with Disabilities," (A-01-00-02502)
May 3, 2001
Complete
Text of Report is available in PDF format (2.23 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides a summary of systems used by some States to identify, investigate, and resolve incidents of abuse
or neglect of persons with disabilities. Up to 90 percent of persons with disabilities reside in facilities, such as group
homes, residential schools, and supervised apartments, that do not receive Medicare or Medicaid funding. With little or
no Federal assistance involved, these people must rely solely on State systems to identify, investigate, and resolve reports
of abuse or neglect. Such laws, regulations, and systems for protecting persons with disabilities from abuse or neglect
can vary significantly from State to State. We are recommending that the Health Care Financing Administration, the Administration
for Children and Families, the Substance Abuse and Mental Health Administration, and the Food and Drug Administration work
cooperatively to provide information and technical assistance to the States to (1) improve the reporting of potential abuse
or neglect of persons with disabilities; (2) strengthen investigative and resolution processes; (3) facilitate the analysis
of incident data to identify trends indicative of systemic problems; and (4) identify the nature and cause of incidents
to prevent future abuse.